               -_u.-.....




             THE CLINICAL ROLE OF THE

              COMMUNITY PHARMACIST

                            CASE STUDIES




                            Richard P. Kusserow
                            INSPECTOR GENERAL




OEI- 01- B9- B9161                                NOVEMBER 1990
                                 10




                        THE CLINICAL ROLE OF THE

                         COMMUNITY PHARMACIST


                                CASE STUDIES




              "VJCf$'




 '0



          q"'.I3G




OFFICE OF 
                  INSPECTOR GENERAL
OFFICE OF EV ALUA TlON AND INSPECTIONS
                                               NOVEMBER 1990
                . . . . . . . . . . . . . . . . . . . . . . . .    . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .... . . . . . .
                                                              . .. .. .. .. .. .. ...
                                                                                   . ............ .. .. .. .. .. .. ..
                                                                                                                     . . . . . . .




                                    TABLE OF CONTENTS




INTRODUCTION................................................. .

ANALYSIS OF CASE STUDIES......................................


CASE STUDIES

     Calvin Knowlton and Amherst Pharmacy

     Howard Juni and Capitol Drug

     Linda Garrelts and Jones Pharmacy. . .

     Nancy Culberson and
     Lexington Family Practice Pharmacy. . . . . .
     Julee Alexander and Lifesource ..............................


     Madeline Feinberg and
     Accredited Surgical Company. . . . .
APPENDIX

     Case Study Methodology. . . . .                                                                                              1 - 1

                                                                           '''--'   ''''''




                                       INTRODUCTION


This is a companion report to the January 1990 Office of the InspectOr General report entitled
 The Clinical Role of the Community Pharacist. " That report describes the current level of
clinical services available in community pharacy settings, discusses the barers that limit
the availability of such services, and suggests actions that can be taen to improve
pharmaceutical care for ambulatOry patients.

This report provides an analysis and summar of the case studies that are referenced in the
above report. These studies focus on six community pharacists who provide a broad range
of clinical services to their patients. Clinical services are those patient-oriented functions that
identify, resolve, and prevent drug-related problems.

Our purpose in conducting the case studies was twofold: (1) to detertne the extent and type
of clinical services offered by the pharacists, and (2) to identify methods they use to
overcome barers to clinical care. These barers, which ar discussed at length in the
companion report, include:

              Economic: product- based reimbursement strctue        and uneven use of supportve
              personnel.

              Interprofessional: lack of collaboration between physician and pharacist.

              Informational: incomplete patient profIe information.

              Training: inadequate training in clinical pharacy skills.

              Patient demand: uneven demand by patients for clinical pharacy services.

In this context, it is important to note that our case-study pharacists are not representative of
community pharacists as a whole. They were selected, in fact , because of the atypical nature
of their practices. In each case , we observed their daily activities, interviewed patients served
and spoke with physicians with whom they collaborate. Based on these observations and
interviews, we documented the rage of services offered in each of the four componenis of
clinical pharacy services: collection of patient information, drg utilization review (DUR),
patient counseling, and physician consultation. Measuring their performance agaist the mean
level of clinical services offered in community pharacy settngs as documented in research
literature, we can safely say that all provided an exceptional mix of clinical care to their
patients. (See appendiX: I for a description of the case study methodology.
In the first par of this report, we present an analysis of how the four case-study pharacists
who practice in traditional community settings were able to overcome the barers to clinical
practice. These pharacists are: Calvin KnowltOn , owner of Amherst Pharacy in
LumbertOn , New Jersey; Howard Juni , co-owner of Capitol Drug in White Bear Lake
Minnesota; Linda Garelts , co-owner of Jones Pharacy in Spokane, Washington; and Nancy
Culberson , owner of Lexington Family Practice Pharacy in Lexington , South Carolina.

In the second par of the report , we offer a detailed summar of the practices of each of the
above pharacists and of the two others who do not practice in traditional community
settings: J ulee Alexander of Lifesource Inc. in Larkspur , California , and Madeline Feinberg of
Accredited Surgical Company in Columbia , Marland.
                             ANALYSIS OF CASE STUDIES


Our analysis of how the case-study pharacists have overcome barers to clinical practice
indicates that the methods used are typically a function of individual skills and personal
commitment. We note that the flexibility inherent in managing one s own independent
pharacy is one condition in which these skils can be applied; nevertheless , as discussed in
the companion report , the independent pharacy setting does not , in itself, guarantee that a
full range of clinical services will be provided.

There were no unusual environmental or market conditions that allowed the case-study
pharmacists to develop clinical practices. All operate in highly competitive markets and
compete for custOmers with chains, discount pharacies and mail service pharacies (MSPs).
Populations served by the pharacists are quite diverse, ranging from working class urban
patients to more affuent suburban patients. In sum , these pharacists enjoy no external
advantage over their colleagues. Instead, a combination of skills in clinical pharacy,
business management and communications, coupled with an unusually strong professional
commitment appear to be the ingredients for a successful clinical pharacy practice.

Our conclusion from the case study analysis is that this formula cannot be duplicated easily
either through reimbursement incentives or regulatory requirements. The conditions that
obtain in these four cases where barers to clinical pharacy have been overcome are largely
idiosyncratic and do not suggest an immediate or generalzable solution to the current gap in
clinical pharacy services for ambulatory patients.

Below is a summar description of how the case       study pharacists manage the barers
providing clinical patient care as described in this report:

The Economic Barrie'::    All of the case study pharacists have developed financially
successful practices that include a broad range of clinical services, despite the constraints of a
transaction- based reimbursement system. Their ability to do so is the result of two factOrs.
The first is an aggressive, entrpreneurial approach to the business management aspect of their
practice. As independent pharacists, they are able to control all aspects of their practice and
each has a history of experimenting with new products, services and marketing techniques.
Several have expanded their traditional prescription drg services to home health car
products; one has experimented with marketing his practice as a specialized geriatrc service.
Several offer blood pressure and cholesterol testing services for their patients. The
development of new markets and services such as these appears to loosen the economic
constraints and subsidize the clinical service aspect of the practice. One may conclude that the
view of the pharacist as a busiqessperson , traditionally associated with the view of the
pharacist as a non- professional , seems quite compatible with a clinically-oriented
professional role.
The second factor that reduces economic barers is the use of technicians. Each of the
case-study pharacists uses technicians to count and pour pils and to perform other technical
and supportive activities. Economically effcient allocation of personnel allows these
pharmacists to spend their time interacting with patients, analyzing clinical problems and
consulting with physicians.



The I nterprofessional Barrier: 
Each of our study pharacists appears to have a strong sense
of his/her own professionalism. In day- to- day activities of their practice , they are nO! hesitant
to initiate contact with physicians and each is aggressive in doing so when a question arises on
patient care. Several are co- located with medical practices and are able to consult with
physicians regularly on a face- to- face basis. One pharacist who is co- located with a family
practice has an arangement with the physicians whereby she reviews each patient               s char
every time a physician prescribes a drg. In no              case did we sense that the pharacists
consider themselves inferior to the physicians with whom they dealt; rather, they see
themselves as one par of a primar health car team.

In addition to collaborating closely with individual physicians, the study pharacists    also are
quite active in professional associations, and some use those affiliations to educate local
groups of physicians about the clinical services pharacists can offer. One of our study
pharacists is involved in a project with her local pharacy association in which pharacists
appear at local medical association meetings to present continuing education modules on drg
therapy and the role of clinical pharacy in the community setting. A physician who is
involved in the project reponed to us that he believes this education effort has encouraged his
colleagues to collaborate more effectively with local pharacists. Some other pharacists we
visited also lecture to groups of physicians in less formal settings. In sum, the case-study
pharacists have managed to improve intet'rofessional relationships though both individual
and group efforts in the context of promoting their profession.

The Informational Barrier: 
 All of the pharacists we visited place strong emphasis on
gathering patient information, including prescription and over- the-counter medications,
allergies and diseases/conditions. The information is then automated (all use computerized
screening tools) and updated when there is a change in status. As mentioned previously, some
of the pharacists   also provide monthly blood pressure scrning and all routinely request lab
data information from physicians or patients when they suspect a dosage level problem. The
most elaborate information review occurs in the case of the pharacist who is co- located with
a family practice and is able to review complete medical fies for each patient.

The Training Barrier: 
             All of the pharacists we visited graduated in the past 20 years from
colleges of pharacy with currcula in clinical services. Several   also have other
undergraduate or graduate degrees and one has a Phar. D. degree. Additionally, all are
affiliated in some way with nearby academic institutions. All allow their pharacies to be
used as clerkship or internship sites by local colleges of pharacy and some teach par time                 in
these colleges.

These contacts with academic institutions help to keep the pharacists in touch not only with
trends in pharacy education , but also more generally with the latest thought concerning their
profession. In paricular, ideas concerning clinical pharacy, although they may be wide1y
discussed and endorsed, are not so firmly entrnched in the mainstream of professional
practice as they are in colleges of pharacy. Thus, continued contact with these leaming
centers helps to reinforce pharacists ' commitment to clinical pharacy practice.

The Patient Demand Barrier: 
          This barer is reduced in a number of ways by the pharacists
we visited. All provide some written information to their patients and discuss basic
medication issues with each new prescription , whenever there is a status change in the
patient s profie, and in cases that are deemed as high risk by the pharacist. (They   also make
themselves available by phone when the pharacies ar closed. ) The pharacists believe that
this information sharng and counseling both encourage patients to raise questions and create
expectations among patients that afect demand.

Each pharacist is       sensitive to issues of privacy and every pharacy we visited had some
                                also


semi-private space for patient counseling. One pharacist who operates an apothecar has
designed the physical setting so that the waiting ara is separted from the space in which he
counsels patients.


Several pharacists publish newsletters on health car and drg topics that are avaiable for ­
their patients in the waiting ara. This technique, they believe, also encourages patients to be
more aggrssive in requesting additional information. Most of the pharacists      also attend
brown- bag sessions with elderly patients to discuss their drg regiens and educate them
about clinical pharacy services.
                                       CASE STUDIES



 CASE STUDY No. I:
 Ca!i,in Knowlton and Amherst Pharmacy

 GENERAL BACKGROUND

 Amherst Pharacy is located in Lumberton , New Jersey. Amherst was purchased by its
 current owner, Calvin Knowlton , in 1975 at which time it was it full-scale drgstore that
 included both pharacy and non-pharacy items. Over the next three years, Mr. Knowlton
 transformed the operation into an apothecar, which offers only pharacy products. (At
 Amherst , the stock of non- prescription drg items is quite limited and represents only a small
 percentage of the overall pharacy transactions. ) In addition to drug products, Amherst also
 sells and leases durable medical equipment.

 Lumberton is a suburb of Philadelphia and Amherst s client base is a mix of middle and
  working class patients. Approximately 11 percent of prescriptions are Medicaid-reimbursed,
 45 percent are paid for by private third pary insurers and the remainder are paid for in cash.
  Amherst services two nursing homes and one hospice as a provider of prescrption drgs, but
 does not act as a consultat in those facilities. (Although pharacies in New Jersey are
. perttted to provide both consulting and dispensing services to a nursing home, such
  arangements are highly unusual. ) Amherst competes with seven other pharacies within a
  two-mile radius.

 Approximately 1650 prescriptions are filled at Amherst on a weekly basis. Eight hundred
 twenty five or 50 percent are for nursing home and hospice patients and the remainder are for
 ambulatory patients.

 PHARMACIST' S BACKGROUND

The pharacy is owned and managed by Calvin Knowlton, who received his B. S. degree in
1972 from the Temple University School of Pharacy. Mr. Knowlton is currntly in the
process of completing a doctorate degree in Pharacy Admnistation and Health Policy at the
University of Marland.

For the past eight years, Mr. Knowlton has taught at several universities, including Temple
Rutgers and the Philadelphia College of Pharacy (PCP), where he is currently a Clinical
Associate Professor. He has also been continually involved in national and local pharacy
and health care organizations, and paricipates regularly in seminars and conferences that
focus on health care issues.
From the onset of his practice, Mr. Knowlton has emphasized clinical pharmacy services and
his transformation of Amherst from a full-service drg store to an apothecary reflects his
commitment to confine his own practice of pharacy to patient care. Although he has no
formal training in business administration , he is a highly successful entrepreneur and a strong
proponent of building business skil training into pharacy school currcula.

Mr. Knowlton is currently in the process of developing an executive management program at
PCP that wil focus on preparng recent pharacy school graduates to purchase their own
pharmacy. It is Mr. Knowlton s belief that pharacists would be more likely to purchase and
manage their own businesses , if they had an opportunity to develop fundamental business
skills. He feels that owner- pharacists control the policies and procedures of the pharacy
much more than employee pharacists, and that the most expedient way to implement clinical
or patient-oriented policies in community pharacies is first to empower pharacists with the
authority to set such policies.


STAFF

Consistent with his philosophy aboUt effcient business practice, Mr. Knowlton s staf includes
a high proportion of pharacy technicians. Amherst employs four full- time pharacists,
seven full-time technicians and three par- time technicians. Technicians conduct routine
counting and pouring activities, data entr on the pharacy s information system , and stock
management. Mr. Knowlton believes that liberal use of technicians is the most critical
requisite to providing clinical patient care. Additionally, Amherst serves as an internship site
for pharacy students from PCP who are actively involved in all operational aspects of the
pharacy.


PHYSICAL SETTING

The patient waiting ara at Amherst is similar in design to that of a physician s offce with a
seating area that is separated from the section where patients meet with the pharacists. The
waiting area is equipped with magazines as well as newsletters on health topics and is adjacent
to a small section of non- prescription drg items. Beyond the waiting area and separated from
it by a four- foot room divider is a counter section where patient consultation occurs. This ar­
rangement allows for a great deal of privacy; conversations with patients are held outside the
hearng rage of other staf and patients. Next to the counseling ara is a private room which
is used for closed- door consultations as well as blood pressure monitoring.
       .--- -...




CLINICAL ACTIVITIES


     Data Collected

     Each new patient at Amherst completes a patient information form which includes
     name, age , allergies, chronic conditions and currnt drg regimen. (In New Jersey,
     pharacists ar required to maintain patient profiles. ) Mr. Knowlton reports that
     patients are quite cooperative in supplying this information; he has never encountered
     any serious resistance from his patients on this account. All of the patient profie
     information is maintained on the pharacy computer system.

     Unavailable Patient Data

     Mr. Knowlton believes that the pharacist s ability to monitor patient care would be
     enhanced considerably if he had access to lab information. Lab data would enable him
     to conduct more thorough drg utilization review and to identify adverse drug
     reactions (ADRs) on a more tim ly basis. At Amherst, blood pressure screenings are
     routinely offered to patients who are being treated for hypertension; however, New
     Jersey prohibits pharacists from perfortng other stadard tests that can be
     conducted through fingers tick procedures..



     DUR/Patient Counseling


     Each patient is interviewed by the pharacist prior to receiving a drg, and a computer
     screening and pharacist review is conducted each time a drug is dispensed. In
     addition to providing the patient profie information , each patient is asked why the
     drug is being prescribed and what over-the-counter (OTC) drgs the patient is using.
     After reviewing the patient s drg regimen, pharacists then provide each patient. with
     information on the name of the drg, its purpose, strength of dosage, how it should be
     taken and potential interactions and side effects. For new prescriptions and at the time
     of a first refill , this interview process is most extensive. Mr. Knowlton feels that the
     first refill is a critical time for pharacist intervention with the patient; he places
     strong emphasis on the monitoring aspect of patient counseling and asks very specific
     question s at first refill time to assess the patient s reactions to the drg and to reinforce
     instrctions on proper administration , side effects and interactions. Additionally, for
     patients who are deemed at high risk (e. , have complex drug regimens or multiple
     conditions), or patients who ar taing drgs that ar parcularly sensitive, more
     elaborate interviews are held throughout the course of treatment. One technique that
     Mr. Knowlton uses to monitor drg therapy is that of providing staer doses to
     patients who are at high risk and are staring a new prescription. (In some cases, he
     extends this policy on drgs that are parcularly costly. ) This allows for timely follow
     up by the pharacist; once the patient, pharacist and physician have ascertained that
     the drug can be tolerated, the length of fill is extended.
       Physician Consultation

       Approximately 50 percent of the prescriptions filled at Amherst are called in by a
       physician or staf of a physician s office. Other than orders placed by phone , most
       pharacist/physician contact is initiated by the pharacist when he has a question or
       concern about the physician s orders. Mr. Knowlton reports that over time he has
       developed good working relationships with the physicians who treat his patients and
       in general , has found most of them open to discussing the specifics of their drg .
       therapy decisions. Occasionally, some physicians contact Mr. Knowlton and consult
       With him prior to making a drug selection for a patient

       One issue that frequently arses in his daily practice is that of prescribing high cost
        me- too " drgs. During our site visit, Mr. Knowlton identified a number of newly
       marketed and very expensive drgs that ar not therapeutically different from
       alternative , lower-cost medications. When one of these higher-cost drgs is
       prescribed, Mr. Knowlton often contacts the physician to discuss the cost issue; in
       many cases, he reports, the physician is totally unaware of the retail cost and, when
       told , is willng to substitute a lower-cost alternative. Mr. Knowlton believes that
       patterns of high-cost drg prescribing ar a direct result of marketing blitzes by
       manufacturer representatives, referrd to as detailers. During our site visits, a drg
       detailer visited Mr. Knowlton and we were permtted to observe their conversation. In
       the course of the visit, Mr. Knowlton asked the detaler if she routinely discussed drug
       costs with physicians and she responded that she did not unless specifically asked by
       the physician. Mr. Knowlton believes an important component of his own clinical roJe
       is that of educating physicians about lower-cost therapies, notwithstanding the issue of
       who is paying for the drg.

EDUCATIONAL AND ASSOCIATION ACTIVITIES

Mr. Knowlton is actively involved in a number of local and national professional
organizations. He currently chairs the American Pharaceutical Association s section on
Pharacy Practice and Management in Ambulatory and Home Health Care and is Vice
President of the American College of Apothecares. He is a member of the Professional
Affairs Committee of the American Association of Colleges of Pharacy and Chairman of the
Community Pharacy Credentials Committee of the American College of Apothecares. As
mentioned previously, Mr. Knowlton is on the faculty of the PCP, and Amherst Pharacy
serves as an internship site for pharacy  students at that school.
Mr. Knowlton publishes a newsletter on health care issues which is distrbuted at the local
level , and Amherst pharacy staf conduct meetings on a regular basis with elderly patients in
the Lumberton area and with nursing staff of his contracted nursing homes and hospice on
issues associated with drg therapy.
CASE STUDY No.
Howard Juni and Capitol Drug

GENERAL BACKGROUND

Capitol Drug s primar location is in White Bear Lake, Minnesota , a suburb of St.Paul with a
population of approximately 23, 000. There are two other locations: one in Minneapolis and
one in Apple Valley, a suburb of the twin cities. Capitol Drug was established in 1908 and is
now co-owned by Norman Carlson , Steven Carlson and Howard Juni , Phar.

Originally located at a single site across the street from the state capitol in St. Paul , Capitol
was a tr aditional drug store until 1967 when the owner, Norman Carlson , decided to convert
the operation to an apothecar. Currently, Capitol is a community pharacy which offers
prescription and IV services to ambulatOry and institutionalized patients. CapitOl provides
both pharacy and consulting services to 18 long term care facilities and ten group homes
representing over 2000 beds. Capitol' s staff are paricularly proud of their accomplishments in
the area of nursing home consulting. (As an example, the percentage of patients given
sedative/hypnotic medications in one facility they serve has been reduced from 50 percent to
10 percent as a result of their clinical monitOring activities. ) Additionaly, Capitol sells, rents
and services medical equipment, including durable medcal equipment, colostomy and ostomy
supplies, urologicals and oxygen.

Approximately 75 percent of Capitol's drug transactions are covered by third      par
reimbursement; the remainder are cash transactions. Among its three locations, CapitOl
dispenses 400- 500 prescrptions per day, 20 percent of which are for walk- in patients.

Capitol' s primar site competes with four other pharacies within a one-mile radius, several
of which are discount pharacies. Capitol markets itself as a specialist in geriatrc care, but
its ambulatory patients are of a wide age range. The primar      site is located in an offce
building which   also   houses a physician who specializes in family practice and Capitol services
a number of his patients on a routine basis. Capitol has a reputation for innovation; within the
State, it was the first pharacy to use patient profies to monitor therapy for its nursing home
patients , the first community pharacy to employ a Phar. , and the second pharacy to
use computers in its practice.


PHARMACIST'S BACKGROUND

Dr. Howard Juni graduated from the University of Minnesota College of Pharacy in 1974
after which he was employed by Capitol Drug for four years. From 1978 to 1982 he served as
Assistant Pharacy Director in charge of clinical services at a St. Paul hospital, returning to
Capitol in 1982 where he has remained. In 1986 he became a co-owner of the business. Dr.
Juni works directly with ambulatory patients at CapitOl , in addition to supervising four other
pharacists and directing the consulting service for institutionalized patients.
Dr. Juni is a preceptor for the University of Minnesota College of Pharacy and instituted at
Capitol one of only six post graduate community residency programs recognized by the
American Pharaceutical Association. Throughout his career, he has been associated with a
variety of national and local pharacy and health care organizations.

 Dr. Juni' s practice philosophy is centered on expanding clinical pharacy   care from teaching
hospitals into community settings. He and his parners have used aggressive marketing
strategies and experimented with new products and services to build an economic base that
enables them to provide a broad range of clinical services for their patients. He believes that
the combination of good communication and business skils along with a physical
environment that is conducive to effective patient counseling are the primar ingredients for a
successful clinical practice. Although he recognizes the constraints of a product- based
reimbursement structure and supports the notion of compensating pharacists for their
professional services, he also believes that the issue of service fees is often an . excuse rather
than a reason for pharacists ' inability to offer clinical car in community settings.


 STAFF

 At its primar site, Capitol employs eight pharacists and three full- time technicians in
 addition to the pharacy students who rotate through the facility. Four pharacist work years
 are devoted to nursing home consulting; however, all of the pharacists staf the wal­
 component of the business to varing degrees. This stafng pattern is designed to keep the
 pharmacists who are primarly involved in consulting in touch with patient counseling
 activities.

  Although four of the pharacists on staff have Phar D. degres, provision of clinical
  services is not limited to that group. Dr. Juni believes that pharacists with bachelor
. science degres can be as effective in providing clinical services as those with more advanced
  degrees. From his perspective, the most important prerequisites for providing clinical patient
  care are staying current in the field and concentrating on good communication with patients.

 Capitol makes liberal use of its technicians who perform routine tasks of counting and pouring
 as well as data input and stock management. The organization enjoys a stable stafng pattern;
 of its 25 employees across thee sites, the average length of tenure is seven years.


 PHYSICAL SETTING

 As mentioned previously, Capitol stocks only pharacy items and medical equipment. At its
 White Bear Lake facility non- prescription drgs are stocked in the front of the pharacy with
 the equipment and supply section immediately behind. Adjacent to the display area is the
 pharacy section with a front counter where pharacists and other staff interact with patients
at eye level. Although there is no section isolated for patient counseling, Capitol is
sufficiently spacious to create a sense of separation from sections of the store where customers
may be browsing through displays. There is also a small waiting area where patients can sit
while prescriptions are being filled. The general environment is quiet and , from our
observations, patients feel comfortable engaging in conversation about their drug regimens
with the pharacists even though there is no physical separation from the rest of the facility.


CLINICAL ACTIVITIES


       Data Collected

       Each ambulatory patient completes a profie sheet which includes name , age , allergies
       chronic conditions and current drg regimen. Capitol uses an automated information
       system to maintain patient profies and patient information is entered into that system
       at the onset of treatment. Dr. Juni reports that he encounters no resistance from
       patients in gathering basic profile information as well as any other information the
       pharacist may solicit in an interview. In fact, Dr. Juni reports that his patients appear
       to enjoy that aspect of clinical service. .

       Unavailable Patient Data

       Dr. Juni believes that diagnostic information and lab data would significantly improve
       his ability to provide clinical services, parcularly for the large proporton of geriatrc
       patients he serves. His experience in providing consulting services to nursing home
       patients for whom this information is available has convinced him that services for
       ambulatory patients would be enhanced by the level of therapeutic drg monitoring
       made possible with more complete patient data. Dr. Juni notes that some lab
       information could be collected by finger stick tests , and, in fact , he is currently
       parcipating in a project (funded by Syntex) in which community pharacists use
       finger stick tests to monitor drg therapy.


       DUR/Patient Counseling


       Each patient is interviewed by a pharacist prior to receiving a new prescription and a
       computer screening and pharacist review is conducted each time a drg is dispensed.
       After reviewing the drg regimen , pharacists provide al patients receiving a new
       drg with information on the name of the drg, its purpose, strength of dosage, how it
       should be taken and potential interactions and side effects. Capitol's computer system
       is able to print these instrctions on hard copy, which is given to patients with each
       new prescription. Follow-up counseling is provided by the pharacist whenever a
       patient requests it and in cases when the pharacist feels the patient or drug warant
       close monitoring. Dr. Juni believes that , ideally, patients should be counseled by a
       pharacist each time a drug is dispensed.




       Physician Consultation

       Beyond occasions when physicians phone pharacists to order a prescription , the most
       frequent contact with physicians occurs when a Capitol pharacist calls a physician
       with a question or concern about a paricular prescription. Dr. Juni places a strong
       emphasis on the importance of cultivating successful collaborative relationships with
       the physicians who treat his patients and reports that , in most cases, physicians are
       open to questions or suggestions he raises. On some occasions, physicians call Dr.
       Juni before prescrbing to seek his advice on a parcular drg. As mentioned
       previously, Capitol is located adjacent to a family practice office and, in cases when
       common patients are being treated, the physician and pharacist have an opportunity
       to consult with one another in person. In managing the clinical staff at Capitol, Dr.
       Juni also emphasizes the importance of pharacists keeping abreast of the most
       current scientific information on drg therapy; he believes that physicians ' knowledge
       of such expertise among his staff encourages them to use pharacists in an advisory
       capacity.

EDUCATIONAL AND ASSOCIATION ACTIVITIES

Dr. J uni is the immediate past president of the Minnesota State Pharaceutical Association
and is a member of the American Pharaceutical Association. In his capacity as offcer of the
State Association , Dr. Juni spearheaded a number of community education efforts geared to
increasing patient demand for clinical pharacy services. He is a strong proponent of
educating patients about the benefits and risks of drug therapy and encouraging them to seek
consultation services from their pharacists.

His long association with the University of Minnesota has enabled Capitol to serve as a site
for internships, externships and residencies. Dr. Juni believes that this constat stram of
students has been highly beneficial for Capitol's clinical sta; students brig new questions
and perspectives with them that encourage the clinical sta to continually improve their own
skils and knowledge.
                                     --_u._-
CASE STUDY No.
Linda Garrelts and Jones Pharmacy


GENERAL BACKGROUND

Jones Pharacy is located in Spokane , WA. It is a full-scale drgstore , with a walk-
pharmacy and a large shopping area that includes both over- the-counter (OTC) drugs and
numerous non- pharacy items , located in the same building. The pharacy and
non- pharacy sections of the business are not separated by a wall or by any other structure.
However, the two pars of the business are managed separately.

The client base is of mixed social and economic status. Approximately 25 percent of
prescriptions are Medicaid-reimbursed, and the percentage is growing. Another 10 percent are
paid for by private third party insurers; most of these prescriptions are for nursing home
patients. The remaining 65 percent of prescriptions are paid for in cash. Jones Pharacy
competes with approximately ten other pharacies within a one- ile radius.

The pharacy has three main components: the walk-in pharacy for ambulatOry patients;
nursing home drug provider and consultant; and durable medical supply sales, which are
usually made to home-bound patients. In addition , Jones Pharacy serves as the provider to
the county jail. The pharacy fills approximately 900 prescrptions per week: approximately
75 percent of these prescriptions are for wal- in patients, and 17 percent are for nursing home
patients. The pharacy provides drgs for 105 nursing home beds. Additionally, Jones also
provides cholesterol screening tests on a regular basis for ambulatory patients.

Jones Pharacy has a branch pharacy 30 miles away in Deer Park, a smaler, more rural
community. The Deer Park pharacy fills prescriptions alost exclusively for walk-
patients.


PHARMACIST' S BACKGROUND

The pharacy is managed by Linda Garelts. She graduated from the Washington State
University College of Pharacy in 1978, imd immediately went to work at Jones Pharacy.
Soon thereafter she became a parner in the business. For the last ten year, she has
increasingly emphasized clinical services in her pharacy. . She      has been continually
                                                                  also


involved in national and local pharacy and health car organizations , including the Red
Cross , but especially the American Pharaceutical Association (APhA). She lectures and
organizes community education sessions for these groups, and is a past president of APhA'
practice management section. Through these activities, Garelts has established a nationwide
reputation in the pharacy community as a practitioner and exponent of clinical pharacy in
the community setting.
STAFF

The pharacy staff.includes four full-time pharacists working at the main store , and one
full-time pharacist and one half- time pharacist working at the other store. In addition , one
 Class A" pharacy technician works full-time at the main store. A Class A technician has
gone through a training program accredited by the Washington State Board of Pharacy, and
has passed tests devised by the Board of Pharacy. She can fill prescriptions and take orders
for prescriptions over the phone. Jones Pharacy   also serves as an internship site for
Washington State University College of   Pharacy.


PHYSICAL SETTING

 There is no space maintained especially for communication betWeen the pharacist and the
. patient. This communication occurs at the single window in the pharacy section of the
 facility. According to Garlts, this arangement generally allow enough privacy for the
 patient to convey whatever information she/he nees to; in her view , the proper atttude on the
 pharacist s par wil make the patient feel comfortable discussing her/his drg therapy
 such a conventional physical setting.


CLINICAL ACTIVITIES


        Data Collected

        When a new patient first has a prescription filled at Jones Pharacy, the pharacist
        obtains some basic information concerning the patient s drg regimen that wil form
        the basis of a patient profile , to be used as a guide for appropriate drg therapy in the
        future. Washington State law requirs the pharacist to collect such information on all
        patients.

        Jones Pharacy asks patients for the names of all prescription drgs taken currently
        and in the past, and for the patient s allergies. (Jones Pharacy typically does not keep
        information on OTC drg use on fie. ) This data is not kept on paper; the pharacist
        simply receives the information orally from the patient and types it imediately into
        the pharacy s computer system.

        Unavailable Patient Data

        Garelts said that diagnostic information and data from lab tests concerning patients
        would be useful for her performance of clinical pharacy services. This data would
        enable her to do more thorough drg utilization review (DUR) at the time a drg is
        dispensed, allowing her to identify more potential ADRs and other pO!ential problems.
None of this data is currently available to her for her ambulatOry patients, or to..
community pharacists in general.

Consultant pharacists typically have this data available to them when perfortng
DUR for nursing homes. Garelts acts as a consultant pharacist for some nursing
homes , and in that capacity, diagnostic and lab information are available to her. In that
setting, she said that her increased access to data enables her to do a more thorough
DUR.

Garelts said that pharacists could perform some of the standard lab tests themselves
through a fingerstick procedure, and could thus obtan some of the lab data. However
she said , any attempt to empower pharacists to perform such tests would likely
encounter strong opposition from physicians.


DUR/Patient Counseling


Garelts reviews a patient s drg profile in order to consider the appropriateness of
her/his prescribed drg therapy before the drg has been dispensed. She looks for
duplicate prescriptions (more than one drug prescribed to trat    one condition; this is
the most common problem she discovers), potential drg interactions, and
inappropriate dosages. If she discovers any of these problems, she contacts the
prescriber immediately. Aside from those times when new prescriptions ar presented
Garlts wil conduct individualize DUR only when she observes a negative reaction
of some kind in the patient to her/his 9rg therapy.

Jones Pharacy wil soon have a new computer system instaled that wil facilitate
DUR by displaying a patient's last several prescriptions on the screen automatically,
when the patient s name is entered. The attendig pharacist will not need to access
this information separately.

Pharacists at Jones Pharacy do most of their counseling of patients at the initial
point of sale (POS), that is, for new prescrptions rather than for refills. The amount of
counseling that a patient receives vares considerably. Patients who are receiving
maintenance drgs receive less counseling than those who are being treated for acute
conditions.

Information typically given to patients includes: the name of the drg they are
receiving; the strength of the prescribed dosage; how to take the drg (method of
intake , when to take it , with or without food); and potential interactions and side
effects of the drug.
Physician Consultation

The initial contact between the pharacist and the prescriber, in the case of a given
patient , usually is made by the prescriber. She/he does this when she/he phones the
prescription in to the pharacist, which is most often the case with new prescriptions
at Jones Pharacy; this is done for the patient s convenience. At this time , the
pharacist has the opportunity to ask the physician questions concerning the patient
condition and therapy, and also to give the physician relevant information concerning
the patient s clinical history, if the patient has been a patron of the pharacy in the
past. Physicians wil occasionally consult with the pharacist prior to prescribing a
new drg for a patient. In these cases the physician may wish to consult with the
pharacist concerning allergic reactions or other kinds of ADRs that the patient has
experienced in the past, and may wish to seek the pharacist's opinion concerning the
most appropriate drug therapy for the patient. In these cases , though they are
infrequent, the physician displays great confidence in the pharacist s clinical
expertse, and in the closeness of the pharacist s relationships with her/his patients.

The pharacist at Jones Pharacy usually wil contact the physician in order to
discuss the appropriateness of a prescrption. This can be a delicate matter , and
requires the pharacist to exercise a great deal of judgment concerning the physician
personality. Garelts said that she is famiar with most of her patients ' physicians, and
she knows which physicians wil be amenable to tang advice from a pharacist and
which ones wil not be. She wil not contact those who seem to guard their
professional functions, such as prescrbing, jealously. Most, however, are cooperative
and wil discuss prescriptions seriously with her, she said, and are wiling to change
their prescriptions on her advice. The most frequent reason for Garelts to contact a
physician is that she recognizes an ADR in a patient. Patients who are reacting
negatively to their medications often seek advice from her, rather than from the
prescriber. Additionally, she may call the physician because she notices a potential
ADR , from her reyiew of the patient s profie, before filling the prescrption. A
situation such as this usually arses about once a day. Garelts may 
  also call a physician
concerning the appropriateness of a prescription with the respect to the cost of the
drg. Some prescription drugs are prohibitively priced , for many patients, and some
of these drgs have much lower-priced alternatives. However, Garelts usually does
this only for patients who pay the full cash retail price of a drug, and not for those who
are covered by a third pary insurer, and who therefore pay the same copayment for
every drg.



Significantly, Garelts can change a prescription or a dosage level without consulting
the physician , in some cases. Under Washington State law, a pharacist can establish
 prescriptive authority " with an individual prescriber. The pharacist and the
physician together develop a protocol for the pharacist to follow, with clear
parameters for her/his power to change prescriptions. Within those parameters , the
pharacist may alter the prescriptions of the given prescriber s patients, as she/he sees
fit. Clearly, this possibility indicates the confidence that State law places in the ability
       of pharacists to conduct   clinical analysis and to arve   at prognoses ,   and the
       existence of such an arangement indicates similar confidence on the part of the
       prescriber involved.

       In order to gain a physician s perspective on pharacist- patient interaction , we talked
       with a Spokane physician who practices in the community setting, who is well
       acquainted with Jones Pharacy, and who is active in the local medical society. He
       said that pharacists most often initiate this interaction , usually to clarfy a
       prescription or to suggest a change in prescription. Pharacists usually contact
       physicians concerning clinical issues surrounding prescriptions, he said, but
       occasionally they call with respect to the cost of a prescribed drug.

       This physician also told us that physicians sometimes initiate communication with
       pharacists. In these cases , he said, physicians ar often seeking information
       concerning a new drg that they may not receive from drg companies ' saJespersons,
       such as potential side effects and cost of the drg. In these cases , physicians clearly
       display respect for the pharacological expertse of pharacists.

       However, this physician said, physicians more often are unaware of the level of
       pharacological trning and knowledge possessed         by pharacists-usualy far more
       than a physician possesses. He felt that this situation could be aleviated through
       educati.on of physicians concerning pharacists ' trning, and he felt that local medical
       societies and pharacy societies were well situated to perform this education. In fact
       at the time we spoke with him, he sat on a County Committee for
       Pharacist-Physician Communication.


EDUCATIONAL AND ASSOCIATION ACTIVITIES

Garelts is unusually active in group-oriented edu cation around drg issues, both with patients
in the surrounding community and with other health professionals. As noted above, she is a
former president of the APhA practice management section , and she stil gives speeches for
APhA to other pharacists on how to manage a pharacy.

She paricipates in community education primarly through the use of three programs
developed by APhA, in association with Lederle Laboratories. These programs, designed to
improve patient understanding of and compliance with drg therapy, are entitled " National
Medication Awareness Test," " Self- Awareness Test," and " Managing Medication Wisely.
These presentations combine cassettes , slides and oral presentation. They feature quizzes on
the topics discussed , with individual answer sheets for all those attending, which are
eventually graded.



Garelts is involved with the local Red Cross, with the local OstOmy Board , and with the local
Diabetes Board , on which she currently sits. She helps to get speakers for these organizations.
Her invoJvement with these organizations has helped her to become known to other health
professionals , and to become respected by them as a health professional herself.


ECONOMIC ISSUES

Like most community pharacies, Jones        Pharacy is not reimbursed directly for the clinical
services the staff provide to their patients, such as patient counseling. The cost of providing
these services-most of which is entailed in the time that must be taken to perform
them-must be added to the pharacy s drug prices. Jones staff must rely on the quality of
these services to maintain the loyalty of their patients, in the face of the intense price
competition Jones faces from nearby independent, chain and deep- discount pharacies. Jones
Pharacy has managed to stay afloat financially, despite this competition; but its profit margin
is far from comfortable , reflecting the diffculties encountered by even exemplar pharacists
in the community setting who make a concerted effort to provide clinical services to their
patients.


HOME HEALTH CARE

Jones Pharacy is involved with home health care through its sale and leasing of durable
medical equipment. The clientele for this equipment ar    mostly recent dischargees from
hospitals , and the equipment is mostly of the kind one would fmd in hospitals or nursing
homes: wheelchais, leg supports, hospital beds , trapeze bars, siderals, and seatlift chairs, for
example. Most of Jones s home health patients are geriatrc. Jones has alost 1 000 home
health patients.

Patients hear of Jones s medical equipment services mostly through referrs by physicians
and discharge personnel in hospitals. Jones Pharacy employs one staf member to work on
home health care full-time, and he details hospitals , infortng them of Jones s home health
ser vices. The pharacy   also runs monthly advertisements concerning their equipment sales
on local cable television. The pharacy s management thought TV ads would be an effective
way of reaching the potential clientele for this equipment, since many of them are
home- bound; they report that the ads have brought in a noticeable amount of new business. In
addition, the pharacy s home health supervisor currntly plans to go to local retirement
communities to give talks on the services he provides.

He interacts both with patients and with their caregivers, giving instrction to both in the
proper means of using the medical equipment , though he is neither a pharacist nor a nurse.
He also makes follow-up visits to patients ' homes to make sure that the equipment is being
used properly. If patients have questions about the equipment, they can call him directly.
Virtually none of Jones Pharacy s home health patients have the n:sources to pay for this
equipment themselves. Approximately 70 percent receive some assistance from Medicare in
paying for the equipment , and approximately 30 percent receive assistance from Medicaid.
However, Jones s home health supervisor told us that Medicare reimbursement for home
health equipment is quite incomplete and seems arbitrar. For example, Medicare covers

equipment used to treat renal conditions, but does not cover equipment used to treat liver
ailments; and Medicare does nO! cover bathroom items, which form an essential part of home
health care. Overall , it does not seem that Medicare has yet recognized home health care as a
distinct sectOr of health care, and has not yet developed any systematic method of reimbursing
home health care costs. Thus, reimbursement gained for these costs is generally incomplete
and piecemeal.
CASE STUDY No.
Nancy Culberson and Lexington Family Practice Pharmacy


GENERAL BACKGROUND

Nancy Culberson is the owner and chief pharacist of Lexington Family Practice Pharmacy,
in Lexington , South Carolina. This is an independent, walk- in community pharacy that
located in the same building with five physicians ' offces , which make up Lexington Family
Practice. All of the physicians ' patients who receive prescriptions receive drug counseling at
this pharacy, but they have the choice of having these prescriptions filled there or elsew here.
The pharacy and the family practice are, however, separte businesses with entirely separate
finances.

Lexington is a suburban/exurban area, about ten miles outside Columbia. Ms. Culberson
pharmacy competes with six other pharacies within a three-mile radius, two of which are
chain pharacies. Despite this competition, the pharacy does a healthy business:
approximately 18, 000 families are on file as patients; the pharacy sees approximately 120
patiems per day, and fills betWeen 140 and 200 prescrptions a day. Approximately 80 percent
of those patients who come to the pharacy from the physicians ' offces have their
prescriptions filled there.

Since it was founded, Lexington Famly Practice Pharacy has emphasized clinical services.
Robert Davis , the pharacy s founder, had gone through school with the physicians who
stared the family practice. They all worked together as residents in the Medical University of
South Carolina (MUSC) teaching hospita, as a clinical team. This experience inspired them
to set up their practices together, so that they could replicate some of the collaboration
between physicians and pharacists that appears in hospitas more often than in a
non- institutionalized setting. This kind of collaboration is a basic component of clinical
pharacy practice; thus the atmosphere at Lexington Family Prctice was probably conducive
to clinical pharacy practice when Ms. Culberson arved there.


PHARMACIST'S BACKGROUND

Ms. Culberson received her B. S. in Pharacy from MUSC in 1976. After completing a
3-month unpaid internship at Lexington Family Pharacy, she was hired as a full-time staff
pharacist. She has been at the pharacy since, and bought the pharacy three year ago
when the pharacy s founder, Robert Davis, left the practice to pursue other interests. She
and the physicians in the family practice have recently purchased and moved into a new
bigger building for their practices.

Ms. Culberson told us that she received little training in clinical pharacy in school. She got
such training on the job. She had a family member who was a community pharacist when
she was growing up; perhaps it was this exposure that left her with the idea that , as she told
  , emphasizing clinical services is simply the way that pharacy should be practiced.


STAFF

Ms. Culberson herself is the only full- time pharacist on staff; in addition , two par- time
pharacists and two full-time pharacy technicians are employed in the pharacy. (Under
South . Carolina State law, technicians can dispense drugs under the supervision of a
pharacist , and a ratio of one technician: one pharacist must be rnaintained.

LexingtOn Family Practice serves as an extern ship site for MUSC and typically has two
pharmacy students on staff at one time. In addition , Lexington is a placement site for students
enrolled in a local college pharacy technician program.

There are four physicians practicing in the building, with plans for two more; and one nurse
practitioner practices there as well.





PHYSICAL SETTING

The pharacy seems       designed to convey the sense of a health professional' s offices , similar to
a physician s offces in many ways. A waiting area, with chairs and reading material , is
located in front of the broad pharacy counter (this waiting ara is centrally located among
the physicians ' offices and the pharacy).

The pharacy is technically an apothecar: nothing besides drgs is for sale. There is not
even an open over- the-counter (OTC) drg section; a smal OTC section is located behind the
pharacy counter, and a pharacist wil sell the patient something from this section if it is
recommended by a physician , or if the patient asks for it.

Two private counseling rooms are located on either side of the dispensing area. The
pharacist wil use one of    these rooms to counsel a patient if privacy is desired , or to meet
with a physician or drg   detailer.

A drve- through  window is a new feature of the recently constructed Lexington Family
Practice building. A patient can call ahead for a prescription-usually a refill-and pick it up
here. One of the two computer terminals in the pharacy is located next to this window , so
that the pharacist can call up the patient s computer profile and screen for potential problems
during a drve-through pick-up.
                                                                                      .,-_.._   .--




CLINICAL ACTIVITIES


     Data Gathered

     The pharacy generally has extremely complete data on patients, because of the easy
     information flow from the physicians ' offices. When a patient comes to the pharmacy
     from one of the physician s offices, the pharacist gets the physician s file on the
     patient. (The carer of the file vares. ) This fie , on paper , contains: allergies;
     medical history; drug history; vital signs; a list of the patient s chief complaints;
     report of physical examinations; diagnoses; basic lab test results; and insurance
     information. This information from the physician s offce generally goes back only to
     the point when the patient first visited that physician.
     The patient also brings an " encounter form " with her or him to the pharacy, from the
     physician s offce. This is a sort of " superbil " tellng the pharacist what treatment
     the patient has received, and for what condition , and also allowing for easy tabulation
     of the costs of a patient s visits to all the health care professionals she or he sees in one
     trp. This encounter form also includes a special pharacy section containing the most
     important few pieces of information for the pharacist , concerning the patient
     current physician s visit: namely, the drgs prescribed and the reasons why:

     When a new patient comes to the pharacy, if the physician s file is far less extensive
     than those of old patients, the pharacist wil ask the patient for some basic
     drg-related information, such as allergies and past adverse drg reactions.




     DUR/Patient Counselirig

     The pharacy s computer system accommodates basic information on patients such
     as: name of physician; drg history, including refill dictions and dosage information
     on current prescriptions; insurance information; and alergies. (Allergy information
     generally is not kept on the computer files, since it is included in the physician s fie
     on the patient, which is reviewed when a new prescrption is made, and which can be
     consulted readily at other times when needed. ) This information is reviewed whenever
     a prescription is filled, and each new prescrption or refill that is dispensed is entered.
     When a patient receives a new prescription , the pharacist gives the patient
     information including: the name of the drug; the purpose of the prescription; dosage
     information, including the exact meaning and the importance of following these
     instrctions; the length of the fill; how to coordinate the drug therapy with eating
     habits and what foods to avoid; exactly when and how to tae the drg; how to store
     the drug; the potential side effects of the drg, and how to spot them; and when the
     patient can expect relief. The   pharacist   also
                                                      gives the patient information on how the
     prescription can be refilled. Lexington Family Prctice Pharacy provides a two-page
     summar of its services to patients (attached) that informs the patient that when
receiving medication-from anyone-she or he should receive all the information
listed here.

More extensive counseling sessions are deemed necessar by the pharacist if the
drug therapy prescribed is especially complex , if it cares unusual potential dangers
or if the patient requires special attention. In these cases, such a consultation wil take
place, either over the pharacy counter or in one of the private counseling rooms,
revolving around the issues enumerated above, and involving more extensive
questions and answers between the pharacist and the patient than is usual. Such a
consultation will usually last between five and ten minutes. There is an additional
charge for this consultation , which vares with the time spent by the pharacist.
(Sometimes this charge is waived; for more on this fee, see the 
  Economic Issues
section , below.

A great deal of written material is available to patients at the pharacy, in addition to
all the verbal information. Culberson maintains a libra of pamphlets and leaflets
from pharaceutical companies , the United States Pharacopoeial Convention CUSP),
and other health organizations, on specific drgs and on different health conditions or
risks. In addition, she prepares her own pamphlets on certn parcularly serious
drgs , such as coumadin, and prednisone, that ar not available from any outside
source. She regularly gives this information to patients, though not every patient
receives this kind of wrtten information.

When patients come in for refills, they receive basic counseling. The pharacist asks
the patient whether any problems have arsen since starng the drg treatment. If the
pharacist can  detect no problems, the refill is dispensed and the transaction is
recorded on the patient s computer fie.


Phy     ician     Consultation

The ease and extent of physician- pharacist interaction in Lexington Famly Practice
Pharacy is perhaps, more than anything else, what sets this pharacy apar from
most community pharacies. Almost all of the pharacy s patients are referred there
by the physicians on the premises. With the co- location of the pharacy and the
medical practices, the inter- professional collaboration usually confined to an
institutionalized setting can be , to a great extent, replicated. We have aleady seen
how this arangement provides for ease and completeness of information flow from the
physicians to the pharacist. Occasionally a physician in the practice wil contact
Culberson prior to prescribing, to ask her about a patient s past reactions to drgs, or to
ask about a drg s effects generally. Usually, however, discussion between Culberson
and the physicians in the practice occurs after the physician has prescribed a drg. The
procedures for such discussion seem very informal and flexible: discussion can occur
either after a patient has left the premises, or while the patient is stil there, if the
       pharacist thinks this is necessar; the physicians and pharacists    do not schedule
       regular patient care conferences.

       In addition to discussing patients , the pharacists and physicians are able to discuss
       other matters , such as the merits of new drgs being detailed or of various health
       insurance plans, very easily in this setting. Drug detailers usually meet with Culberson
       and with the physicians on the same visit, although not with all of them at the same
       time.

       Under South Carolina law , a pharacist may not substitute one drug for another that a
       physician has prescribed , at all , and may not change the dosage of a prescription
       without the express permission of the physician. However, the proximity of
       Culberson s pharacy to most of the prescribers with whom she deals , and the
       collegiality that has developed between her and these physicians , keep this legal
       restrction from functioning as a very substantial barer to substitution. The
       physicians at the practice with whom we spoke told us that they generally allow the
       substitutions that Culberson suggests. Generic substitution for a brand-name
       prescription does not occur very frequently, simply because the physicians tr to
       prescribe generics in the first place whenever they can.



EDUCATIONAL AND ASSOCIATION ACTIVITIES

Ms. Culberson ia a member of the APhA , the National Association of Retail Druggists , the
South Carolina Pharacy Association and the Local 5th Distrct Pharacy Association. She
has been a speaker at national pharacy association conferences and is an instructor in clinical
pharacy at MUSe. Ms Culberson        also serves on the Pharacy and Therapeutics Committee
of a local health maintenance organization.


ECONOMIC ISSUES

Only 30% of the pharacy s patients are covered by third-pary insurers, and approximately
70% are cash patients. Approximately 5 percent of patients are Medicaid patients, and 15
percent are geriatrc patients , many of whom receive Medicare benefits.



Culberson charges a fee for some of her patient counseling services, in addition to the price of
the drug. She does this rather than add the cost of the time she spends counseling patients
onto the drg charges. The fee vares, from $1 to $5, according to the time spent in
consultation. She charges this fee only if unusually extensive counseling is required. This fee
is not reimbursed by any third-pary insurers. For this reason , Culberson sometimes waives
the fee; she is more likely to do so if the patient has the prescription filled at her pharacy.
. ..-




        The pharacy requests that cash patients pay for the drugs and services they receive at the
        rime service is rendered. Insurance cards are presented to the pharacist   before   the
        prescription is filled.
CASE STUDY No.
iI/lee Alexander alld Lifesource, Inc.


GENERAL BACKGROUND

Lifesource is a home infusion pharacy in Larkspur, CA , just north of San Francisco. It
prepares medications for use by home- bound patients; almost all of these medications are IV
preparations. Lifesource delivers all its products to its patients; this service, Lifesource
personnel told us , -is drven by patient demand. It is a licensed retail pharacy, but it has no
walk- in facilities.


PHARMACIST'S BACKGROUND

Julee Alexander is the manager of Lifesource s main offce (it has two other , smaller
branches). She graduated from the University of California at San Francisco (UCSF) College
of Pharacy in 1981. UCSF was an early center of the clinical pharacy movement:
 1966 , the " ninth floor project" at the university s hospital brought pharacists   and physicians
together in clinical care teams, and helped launch the hospital pharacy movement that
spread throughout colleges of pharacy in the early 1970s. A grduate from the UCSF
College of Pharacy would likely be trained to emphasize the clinical aspects of pharacy
practice , and this education would, in par, explain Alexander s emphasis on clinical pharacy
in her own practice. She worked in hospital pharacy for two to three years after graduating
from school. Then she left hospital pharacy to work for a different home infusion pharacy
for five years, before coming to Lifesource.


CLIENT BASE

This branch of Lifesource (which wil be the subject of this case study) has approximately 100
patients at anyone time. Approximately one- third     of these patients are geriatrc.



Approximately 50 percent of Lifesource s patients are AIDS patients. This preponderance of
AIDS patients is not, Alexander said, typical of home infusion pharacies. However, it is not
so untypical for such pharacies to specialize somehow in the kind of patient condition they
treat, in response to the competitiveness of the market.

Lifesource     treats some children , delivering neonatal care to patients at Oakand
             also

Children s Hospital.

A key to Lifesource s viability is the general affuence of its clientele. The treatment they
furnish is costly, and often is protracted, since many of the patients treated are tertnally ill.
Medicare and Medicaid provide little reimbursement for the products and services involved in
home infu stoynl'erny (see below), and provide scant coverage for long-term care. This
means that reimbursement must come either from private third pary insurers-who are
providing a growing share of Lifesource s revenues--r from the private resources of the
patients. Lifesource screens prospective patients before agreeing to treat them , to determine
whether reimbursement wil be available through some means. Without this screening
process, under the present public health system, it seems unlikely that a home infusion
pharacy like Lifesource could remain economically viable.


STAFF

This offce has four full-time pharacists on staff, one on three- fifths time , and all five are on
call. In addition , two supervisory pharacists are on staf. Lifesource also employs one
dietician , one full-time warhouse worker, three par- time drvers, and one full- time

technicians.
accountant who handles biling and reimbursement. Lifesource employs no pharacy


Lifesource coordinates the overall health car of its patients, and this includes aranging for
nursing services. Unlike some other home infusion pharacies , Lifesource does not have
staff nurses. Healthsource is the name of the nursing agency that contrcts with Lifesource to
perform most of the direct care of those patients who reuire in- home supervision. Lifesource
originally owned Healthsource, but the two businesses separated when that arangement
became unprofitable. Still, however, Lifesource brings its nursing. business to Healthsource
before any other nursing agency. Thus the relationships and the communication between the
nurses at Healthsource and the pharacists at Lifesource are well-established.


BASIC SERVICES

Lifesource provides some special services that are wort discussing at some length , in order to
explain the kind of pharacy Lifesource is:

(1)     Patient   Care   Conferences:

        Each Friday morning, most of the Lifesource staf-including       all the
        pharacists-gather to discuss the treatments of all current patients. Everyone present
        at the meeting has a patient char , contaning lists of every patient s name , address,
        physician , prescribed therapy, and insurer. Dennis Honda , a pharacist who
        coordinates all of Lifesource s operations, facilitates the seminar-type discussion. The
        staff discusses the prescribed therapies, the attending physicians, and the
        reimbursement schemes of all patients. The pharacist who is handling each case
        gives an update on the patient s progress , and suggestions are made concerning
        treatment.
(2)   Nutritionist Services:


      Lifesource employs a fuIJ-time dietician who services most , but not all , of the
      business s clients. She analyzes their diets, their medical conditions and their
      prescribed drg therapies; then she makes recommendations concerning the diets that
      in her judgment , would best facilitate the distrbution and effectiveness of the
      medications the patients are taking. These recommendations usually do not take the
      form of a strct dietar regimen, but rather , broad dieta guidelines. This dietician
      emphasizes personal contact with the patients she trats. She goes to many patients
      homes, in order to develop a better idea of their dietar needs than she would
      otherwise possess , and in order to develop a general rapport with them. She also
      performs follow-up monitoring after making dietar recommendations , to check the
      compliance of patients with these recommendations, and to check their effectiveness.

      Some patients are not able to ingest food orally, so they are placed on a therapy known
      as Total Parenteral Nutrtion (TPN). This therapy involves the intravenous ingestion
      of all necessar nutrents. The staff dietician monitors patients on TPN, checking their
      progrss weekly. If their health progrsses far enough , she and the rest of the
      Lifesource staf tr to replace the TPN with oral ingestion.




(3)   Enteral Therapy:

      Enteral therapy is instrmantal administered by Lifesource to about 75 nursing home
      patients distrbuted throughout 20 different Skiled Nursing Facilities (SNFs). This
      therapy requires a wide range of paraphernalia and equipment used to administer these
      solutions. This sector of Lifesource s business is kept separate from the home health
      sector, to which a much grater share of the business s resources ar devoted.


CLINICAL ACTIVITIES

(a)   Data gathered

      Lifesource has extensive information on all its patients. Virtally no clinical data
      missing from its patient profies and chars. This indicates the attentive and close
      nature of the relationship between Lifesource and its clients, as well as Lifesource
      close professional collaboration with the physicians who treat these patients.

      Lifesource s clinical data base on its patients includes: medication history (OTC as
      well as prescription), including dates, dosages, duration of therapy, purpose of
      treatments, and potential adverse reactions to each drg; history of smoking and
      alcohol intake; allergies; data from laboratory tests; general medical history; and
      summar of most recent hospitalization. Clinical information specifically concerning
 the present treatment includes: age, weight and neigfii; diagn6sis;,yp-e of therapy;
 whether the patient is receiving IV treatment; whether the patient is diabetic; whether
 the attending physician has given standard anaphylaxis orders; duration of current
 therapy; and whether patient has taken the first dose of medication without incident.

Not only is Lifesource s background information on its patients very complete , given
the close attention Lifesource gives to patients, and given the closed environment of
these patients, it is highly unlikely that any new clinical information will escape the
pharacists. In this respect, a home infusion pharacy like Lifesource is similar to a
hospital or nursing home pharacy.


DUR/Patient Counseling


Lifesource performs prospective DUR for all its patients. The pharacists there
examine patients ' basic clinical data, in order to detertne the appropriateness of a
drug therapy that has been tentatively prescribed. They look for potential side effects
drug interactions and drg- allergy interactions. As noted above , the data base at
Lifesource is very extensive, including information on OTC drgs and home remedies.

Most contact between Lifesource pharacists and patients occurs over the phone.
This occurs when pharacists call patients to check their compliance and their general
condition-which they do on a regular basis-and when patients call their attending
pharacists with questions or problems.

A fair amount of face-tO-face contact is , nonetheless , an integral part of any patient
treatment. The attending pharacist makes the initial visit to a patient s home , with a
nurse. Sometimes, but not always, the pharacist shows the patient how to use the
medical equipment necessar for the patient s treatment.

 Perhaps the most distinctive aspect of patient-pharacist interaction at Lifesource is
 the frequency and quality of the follow-up contact. Pharacists check on patients at
 least once a week if they are on infusion therapy, and in some cases more than once a
 week. The individualized care plans that the Lifesource staf plan and coordinate for
. patients are executed with individualized attention.

As a result, Alexander told us, the relationship between pharacists and their patients
are generally very positive, despite the emotionally depressed state in which many
home- bound patients find themselves. The staf at Lifesource ar generally very
young, and are imbued with the communications training that has been emphasized in
pharacy school in recent years; furthermore, most of the staf pharacists were
trained at UCSF, which , as noted above, is a center of clinical pharacy training.
Staff, including drvers, are given further communications training on the job, through
          minicourses " designed to increase sensitivity to the needs and circumstances-of
         patients; these minicourses focus parcularly on AIDS patients.


         Physician Consultation

         The professional relations between Lifesource pharacists and most of the physicians
         attending Lifesource s patients are quite close, and long-standing. The character of
         Lifesource s client population is, in fact, shaped to a grat extent by these professional
         relationships. Several of the physicians with which the pharacy has close relations
         specialize in AIDS patients , for example , and many patients come to Lifesource
         through referrals from physicians.

        The Lifesource pharacist is the coordinator for a patient s overall treatment. The
        pharacist may be able to give more individualized attention to the patient than a
        physician can. In any case, the pharacist heads the clinical team that cares for the
        patient.

        One issue that has become controversial in California is that of physician ownership of
        pharacies. Under state law , physicians may oWn only less than 10 percent of a
        pharacy. Lifesource personnel told us that physicians someties , through holding
        companies, own more than this 10 percent limit. No physician has any financial
        interest in Lifesource.



 ECONOMIC ISSUES

  Third-pary reimbursement for Lifesource s services and products comes mainly from private
  insurers, whether HMOs or other entities. Medi- Cal (the California Medicaid agency)
. provides some coverage for less than 25 percent of Lifesource s clients (Medi- Cal does not
  cover AIDS treatment). Third-pary insurers do not reimburse the cost of the clinical services
  that Lifesource provides. Most of the costs of these services must be added to the price of the
products provided.

 Medicare pays a small shar of the cost of therapy known as " pain management " usually
given to terminal patients: Medicar pays for the pump used in IV treatment in these cases,
and for a smal porton of the morphine reuired. Pain management is becoming increasingly
expensive, and may soon become costly beyond any available means of payment.

Another economic issue that looms large in Lifesource s sights is drug pricing. Hospitals, and
sometimes other pharacies , may buy drgs at preferential prices from drg manufacturers , if
this brings enough business to the manufacturer. Lifesource s owners have just helped
organize their own " buying group " of pharacies (the Parnteral Alimentation Providers
Association) that wil negotiate collectiv ely with the manufacturers , Lifesource hopes , for a
competitive " contract price. " This , of course, would be a stabilizing factor in the fees that
Lifesource charges its patients.

The use of generic drgs reduces Lifesource s costs, as it does for any pharacy. Lifesource
uses generics whenever possible. Pharacists in California can substitute generics for
brand-name drugs without the prescriber s express permission. (However, they cannot use
therapeutic substitutes , or change dosages , without such permission.


LEGISLATIVE ISSUES

At least two legislative issues concerning pharacy ar currently under discussion in
California. One bil pending in the state legislature is a patient counseling requirement for
pharmacists. California currently has no such legal requirement.

Another bil would allow much wider use of pharacy technicians than is now perttted.
Currently, technicians may only work in hospita pharacies. Under the proposed law
technicians could work in community pharacies in a varety of capacities, so long as a ratio
of I: 1 : 1, among pharacists, technicians and clerks was maintaned in a given pharacy.

This is the bil that has engendered the most serious opposition from pharacy groups , though
onl y some pharacy groups have lobbied against it. The national Association of Retail
Druggists, for example, has lobbied against it, Lifesource personnel told us. Such a position
may seem irrational , for the judicious use of technicians could free pharacists to perform the
clinical services in which technicians are not trained, and that pharacists now often have no
time to perform. However, Alexander told us, such opposition may make sense to those
pharacists who in fact do little more than a skiled technician could, and who envision
themselves doing little more if given the opportunity.
CASE STUDY No.
Madeline Feinberg a1ld Accredited Surgical Company


GENERAL BACKGROUND

Accredited Surgical Company (ASCO) is one of the countr s largest compliance packaging
providers, as well as nursing home pharacy provider and medical equipment company. The
nursing home and medical equipment components of ASCO have been in existence since
1954. The home care component , specializing in the provision of compliance packaging for
the non- institutionalized patient , has been in existence for only three years; this component is
the subject of this case study.




ASCO personnel refer to their home care service as "residential care services " or " assisted
living services. " This seems apt since this component of ASCO does not service patients who
are confined to their individual homes. Rather, it services group homes , and domiciliar care
settings whose residents require supervision and some assistance with the Independent
Activities of Daily Living (IADLs). Most residents ar able to perform their own Activities of
Daily Living (ADLs), except perhaps for bathing. In other words, although these residents
can no longer live independently, they are not and need not be institutionalized. ASCO
packages and delivers prescribed medications for these patients using its compliance
packaging system.

ASCO fills approximately 1 800 prescriptions per month (both prescription and
nonprescription drgs) in its assisted living component; this amounts to 8- 9 percent of its total
of 40 000 prescriptions per month , or 2 000 per day. In its assisted living component , ASCO
services approximately 550 beds in 13 homes, the smalest of which contains six beds, and the
largest of which contains 174 beds. ASCO' s assisted living patients receive an average of 5.
drugs each.





PHARMACIST'S BACKGROUND

Madeline Feinberg is the pharacist in charge of ASCO' s assisted living program. She
received her B. S. from the University of Marland School of Pharacy in 1979, at which time
she began seven years of work in a small community pharacy located in an affluent suburb
of Washington D.

Also in 1979, Professor Peter Lamy, then Chairman of the Pharacy Practice Deparment , U.
M. School of Pharacy, approached her with an invitation to help develop a community drg
education program for elderly focusing on the appropriate use of medications, self care, and
wellness issues. This program , initially funded by the Administration on Aging, is now
entirely funded by pharaceutical industr, notably the Parke- Davis Company. As part of her
effort in working with elderly and the aging provider network for the past 10 years , Feinberg
has recognized the need to develop packaging. systems for elderly at high risk to medication
mismanagement. She focused on the assisted living sector , which services the frail elderly,
and whose providers are medically untrained.

Feinberg told us she enjoyed the interaction with her patients while working in the community
pharmacy, but overall felt that more needs to be done for those elderly who are at risk of to
making serious medication errors. Moreover, she had been asked by several county agencies
to assist in developing a system to assure appropriate medication administration in group
homes.

The alternative care site, or assisted living program, grew out of these efforts. Three years
ago , Feinberg approached Milton Moskowitz, President of ASCO, with the idea of branching
into this emerging marketplace. She convinced Moskowitz to hire her to develop such a
component to the business and has been there ever since.


STAFF

ASCO employs more than 100 people in its entire operation. Only a small group, however
work exclusively in the assisted living component. Feinberg, who heads this section , works
half- time for ASCO, while continuing her diectorship of the Elder-Health Program at the
University of Marland School of Pharacy. She has the exclusive use of two full time
pharacy technicians who fill all the medication orders for the assisted living residents. This
packaging system is more complicated and intrcate to use when compared to the standad
nursing home blister card or unit dose systems. It requires special skills and concentration, as
each card is customized for each patient, and must contain exactly the correct doses in the
appropriate blister. More important, it requires special communication skills in dealing with
residential care sta, who are medically unsophisticated, and often need help in sortng out the
regimen as prescribed by the. physician. Both pharacist and technicians devote a
considerable portion of time to talking with providers, and in addition , visit the homes for
in-service education on the system periodically. (See section on compliance packaging under
 basic services " below).




PATIENT POPULATION

As remarked above, the assisted living population , in terms of self-suffciency and need for
supervision, lies somewhere between the nursing home population and the unassisted
population living in the community. The most importnt and most uniform characteristic of
this population is its advanced age. Chronic ilnesses are common among this group, as are
polymedicine and multiple prescribers. Many, though by no means all , members of this
population also suffer from mild cognitive impairment. Thus, an easy-to-use method of drug
self-administration is highly necessar in this setting.
. ---




    sAsrc    SERVICES

    ASCO is an institutional pharacy with no retail services , except for their medical equipment
    store which is located 15 miles from the pharacy. The bulk of the pharacy operation is
    devoted to taing medication orders from nursing homes, and other institutions which they
    service , including jails , intermediate care facilities for the mentally retarded , homes for the
    emotionally impaired, a psychiatrc hospital , and assisted living homes. Drugs are prepared
    for their patients using a varety of systems as noted previous1y, including the compliance
    package.

    (1)     Compliance Packaging System

            The compliance packaging system is one aspect of ASCO' s service. It is intended to
            allow patients to self-administer medications according to a prescribed daily regimen.
            In many of the homes, staff take the responsibility to help the resident with this task
            since most states do not pertt unlicensed personnel to administer medication. The
            compliance packag facilitates assistance and assures that the untrained staff person
            wil readily identify the correct blister for the patient.

            This package involves a small, hand- held boar with clear plastic bubbles, inside of
            which tablets or capsules are enclosed. Each bubble represents the doses to be taen
            on that day. Each card is labeled with the time of day, e. morning evening , or a
            special time, and contains the month' s supply of medicatioI) for that time. The blisters
            on each board come in several sizes to accommodate several pils , as well as to
            accommodate very large pils. The bubbles may be labeled by day of the week , if
            requested by the administrator of the home. The board iUways contains one month'
            supply of medications. As needed medications ar packaged separately, per card , and
            must be reordered when running low. Likewise , eye drops, ointments, liquids and
            other preparations are refilled as needed. But the compliance package contaning the
            month' s supply of medications is automatically refilled each month , thus assuring that
            a medication wil not run out or be forgotten. The medication orders are updated by
            the physicians, and at the time of medication changes , the card may be re- packaged
            and sent to the home within a matter of hours.

            This packaging system facilitates review of the patient s ability to self-medicate by the
            caregiver who may not be giving close supervision to a parcular resident. The
            caregiver need only glance at the card to determine if the medication is being taen
            corrct! y.



            Feinberg told us that these systems force pharacists to communicate with their
            patients, or in this case, with their caregivers, i.e., those who manage the group homes.
            It provides an opportunity to tal about the therapeutic use of the drg, its side effects,
            and its proper administration. Feinberg parcularly emphasizes the monitoring
      the physician.
      component of the caregiver s duties, and insists that observed changes be reported to



(2)   Patient Education

      Although the pharacists at ASCO do not counsel individual patients as a rule , they
      do conduct in-service staff education in nursing homes and in the assisted living sites
      that they service. Some of the tOpics on which Feinberg speaks are " Depression in the
      Elderly - Medications Used for Treatment, Psychiatrc Side Effects of Commonly
      Used Medications, Drug Interactions " and others. ASCO consultant pharacists
      offer talks on Parkinson s Disease , antianxiety drgs, dilanti dosing, constipation
      gastrointestinal disease and treatment, AIDS, arhritis, OTC cough and cold remedies
      and other topics on request.

CLINICAL ACTIVITIES


(1)   Data Collected

      ASCO collects extensive data on its patients, which it can use in perfortng DUR
      since the car sites where these patients ar living have very complete data. ASCO
      collects data concerning prescrption drg use , allergies, diseases and conditions, as
      well as diagnostic data on patients. In addition, ASCO collects complete information
      on OTC drg use.


(2)   DUR

      ASCO performs prospective DUR when fillng new prescriptions, but only though the
      use of an automated computer program. ASCO' s computers screen for allergic
      reactions and only for the most severe drg interaction. (They are currently in the
      process of acquirng a new computer which wil permit a more comprehensive screen
      for drg/drg interactions.

      ASCO presently does not perform retrospective DUR in its assisted living sites.
      However, Feinberg told us, substantial therapeutic value could be gained through this
      type of DUR; she thinks it would serve to protect a population at risk from potential
      misutilization of prescribed medications. This kind of DUR , unfortunately, is rarely
      reimbursable in this setting. However, some states have considered the need for
      pharacist conducted reviews in domiciliar car , and have mandated this service, for
      example , in North Carolina. Florida recently passed legislation requiring consultant
      pharacy service when the home is inspected and found to be deficient with regard to
      medication management. In therapeutic terms, such a requirement is a step forward.
NATIONAL ISSUES


We discussed the policy context of our study with Feinberg and Moskowitz , and in response
they offered ideas concerning some national issue aras.


(1)    Definition of Patient Counseling

       Feinberg and Moskowitz are of the opinion that a wide range of counseling practices
       exist , reflecting great varations in quality of patient care , and that these varations
       should be recognized in government policy. . They questioned whether contact over the
       telephone-which is central to the counseling activities of, for example , mail-service
       pharacies--an provide adequate patient counseling. Furthermore, Feinberg raised
       the issue offollow-up counseling activities, saying that these are crucial to the
       effectiveness of counseling.


(2)    Demonstration Projects

       Feinberg had some ideas for general topics on which it would be informative for the
       Deparent to fund demonstration projects. One idea was a project involving
       compliance packaging, to determine whether the use of such a drg delivery system
       tends to increase the level of patient counseling and physician consulting that
       pharacists conduct.



      . Another suggested project would involve consumer demand for clinical pharacy
        services, and possible ways to stimulate such demand. Feinberg believes strongly that
        educated consumers , who demand such services, are more likely than anyone else to
        ensure that such services are provided. Thus detertning how to stimulate consumer
        demand is essential, in her view, to any effective progrm design to stimulate clinical
        pharacy practice.
                                        APPENDIX I


                              CASE STUDY METHODOLOGY

The purpose of conducting the case study was two- fold:

             to observe and document activities that comprise clinical pharacy practice; and

             to identify (in the case of clinical pharmacists who practice in traditional
             community settings) the barers they face in providing pharaceutical care
             their patients and to determine the methods they use to overcome those barers.

Given that objective, we made a purposive selection of pharacists who were identified by
members of professional and research organizations as practitioners who provide an unusual1y
broad range of clinical services to their patients. A number of organizations and individuals
were helpful to us in identifying a candidate pool, including the American Pharaceutical
Association , the American Association of Colleges of Pharacy, the University of Florida
College of Pharacy, and the University of Marland College of Pharacy. We made
selections from an initial pool of 35 candidates based on telephone interviews during which
we solicited information about the nature of the pharacist s practice , the population served,
the pharacist s therapeutic specialty, and her/his wilingness to paricipate in the case study.
Our final selection was based in par on geogrphical diversity; urban, rural and suburban
practices ar represented. Although we sought candidates who practice in chain , independent
and apothecar settings , only the latter two are represented. None of the candidates
nominated practice in chain pharacies.

The pharacists   selected for our study are listed below:

       Julee Alexander
       Lifesource, Inc.
       900 Larkspur Landing Circle, Suite 250
       Larkspur, CA 94939

       Nancy Culberson
       Lexington Famly Practice Pharacy
        O. Box 460
       Lexington , SC 29072

       Madeline Feinberg

       Accredited Surgical Company
       9515 Gerwig Lane, Suite 131
       Columbia, MD 21046




                                              1- 1

       Linda Garrelts
       Jones Pharacy
       S. 906 Monroe
       Spokane , WA 99204

       Howard Juni
       Capitol Drug Center
       2007 E. County Rd. E
       White Bear Lake , MN 5511 0

       Calvin Knowlron
       Amherst Pharacy
       332 Lumberton Rd.

        O. Box 56
       Lumberton , NJ 08048


In each case, we made site visits to observe the pharacist s practice over a 2- to 3- day
period. In the case of the four pharacists who practice in traditional community settings
(Knowlton , Juni , Garelts, and Culberson), we conducted extensive interviews with the
pharacist and other sta on site, physicians who were famliar with the pharacist
practice, and patients served by the
                                   pharacist. We   also  observed the pharacist in practice
and reviewed the information systems they use to support clinical activities.
